                       U.S. Department of Agriculture

                          Office of Inspector General
                           Financial & IT Operations




             Audit Report

 National Information Technology Center
General Controls Review – Fiscal Year 2005




                              Report No. 88501-2-FM
                                    September 2005
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                 Washington D.C. 20250


September 21, 2005



REPLY TO
ATTN OF:       88501-2-FM

TO:            David Combs
               Acting Chief Information Officer
               Office of the Chief Information Officer

THRU:          Sherry Linkins
               Office of the Chief Information Officer
               Information Resources Management

FROM:          Robert W. Young             /s/
               Assistant Inspector General
                for Audit

SUBJECT:       National Information Technology Center General Controls
               Review-Fiscal Year 2005


This report presents the results of our audit of the internal control structure at the
Office of the Chief Information Officer/National Information Technology Center as
of August 31, 2005. The audit was conducted in accordance with “Government
Auditing Standards” issued by the Comptroller General of the United States
including American Institute of Certified Public Accountants Professional
Standards AU Sections 316, 319, and 324 as amended by applicable statements on
auditing standards. The report contains an unqualified opinion on the internal
control structure and contains no recommendations. Therefore, no response from
your office is necessary.

We appreciate the courtesies and cooperation extended during our audit.
Executive Summary
National Information Technology Center General Controls Review - Fiscal Year 2005

Results in Brief                 This report presents the results of our audit of the Office of the Chief
                                 Information      Officer/National     Information      Technology      Center’s
                                 (OCIO/NITC) internal control structure as of August 31, 2005. Our review
                                 was conducted in accordance with “Government Auditing Standards” issued
                                 by the Comptroller General of the United States including American Institute
                                 of Certified Public Accountants Professional Standards AU Sections 316,
                                 319, and 324 as amended by applicable statements on auditing standards.
                                 The center has taken significant actions to mitigate the weaknesses we
                                 identified in prior audit reports. And while minor control issues are still
                                 being mitigated in the midrange environment, our report contains an
                                 unqualified opinion on the center’s internal control structure as a whole.

                                 Our objectives were to perform testing necessary to express an opinion about
                                 (1) whether the control objectives and techniques in exhibit A for the
                                 U.S. Department of Agriculture’s OCIO/NITC present fairly, in all material
                                 respects, the aspects of OCIO/NITC’s policies and procedures in place and
                                 operating effectiveness during the period October 1, 2004 through August 31,
                                 2005; (2) whether this control structure of policies and procedures was
                                 suitably designed to provide reasonable assurance that the specified control
                                 objectives were complied with satisfactorily; and (3) the operating
                                 effectiveness of the specified control structure policies and procedures in
                                 achieving specified control objectives. In 2004, the U.S. Government
                                 Accountability Office (GAO) issued its report on internal controls testing
                                 within the Department. 1 We conducted testing to determine the status of
                                 corrective action on the issues identified in that report.

                                 Our audit disclosed that the control objectives and techniques identified in
                                 exhibit A present fairly, in all material respects, the relevant aspects of
                                 OCIO/NITC’s control environment taken as a whole. Also, in our opinion,
                                 the policies and procedures, as described, are suitably designed to provide
                                 reasonable assurance that the control objectives would be achieved and
                                 operating effectively.

Recommendation
In Brief                         Because of the actions OCIO/NITC has initiated and planned, we do not
                                 make any new recommendations in this report.




1
    GAO-04-154, “Further Efforts Needed to Address Serious Weaknesses at USDA,” dated January 2004.
USDA/OIG-A/88501-2-FM                                                                                    Page i
Table of Contents

Executive Summary .................................................................................................................................i

Report of the Office of Inspector General ............................................................................................ 1

Exhibit A – Office of Inspector General, Review of Selected Controls.............................................. 3




USDA/OIG-A/88501-2-FM                                                                                                                     Page ii
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL

                                          Washington D.C. 20250



Report of the Office of Inspector General
To:    David Combs
       Acting Chief Information Officer
       Office of the Chief Information Officer

We have examined the control objectives and techniques identified in exhibit A for the
U.S. Department of Agriculture’s (USDA), Office of the Chief Information Officer/National
Information Technology Center (OCIO/NITC). Our examination included procedures to obtain
reasonable assurance about (1) whether the control objectives and techniques of the USDA’s
OCIO/NITC present fairly, in all material respects, the aspects of OCIO/NITC’s policies and
procedures in place and operating effectiveness during the period October 1, 2004 through
August 31, 2005; (2) whether the control structure of policies and procedures was suitably designed to
provide reasonable assurance that the specified control objectives were complied with satisfactorily;
and (3) the operating effectiveness of the specified control structure policies and procedures in
achieving specified control objectives. The control objectives were specified by OCIO/NITC.

Our audit was conducted in accordance with “Government Auditing Standards” issued by the
Comptroller General of the United States and the standards issued by the American Institute of
Certified Public Accountants and included those procedures necessary in the circumstances to obtain a
reasonable basis for rendering our opinion.

In our opinion, the control objectives and techniques identified in exhibit A of this report present fairly,
in all material respects, the relevant aspects of OCIO/NITC. Also, in our opinion, the policies and
procedures, as described, are suitably designed to provide reasonable assurance that the remaining
control objectives would be achieved if the described policies and procedures were complied with
satisfactorily.

Also, in our opinion, the policies and procedures that were tested, as described in the exhibit, were
operating with sufficient effectiveness to provide reasonable, but not absolute, assurance that the
control objectives specified were achieved during the period from October 1, 2004 through
August 31, 2005. The scope of our engagement did not include tests to determine whether control
objectives not listed in the exhibit were achieved; accordingly, we express no opinion on achievement
of control objectives not included in the exhibit.

The relative effectiveness and significance of specific controls at OCIO/NITC and their effect on
assessments of control risk at user organizations are dependent on their interaction with the controls




USDA/OIG-A/88501-2-FM                                                                               Page 1
and other factors present at individual user organizations. We have performed no procedures to
evaluate the effectiveness of controls at individual user organizations.

The control objectives and techniques at OCIO/NITC are as of August 31, 2005, and information about
tests of the operating effectiveness of specific controls covers the period from October 1, 2004,
through August 31, 2005. Any projections of such information to the future are subject to the risk that,
because of change, they may no longer portray the controls in existence. The potential effectiveness of
specific controls at OCIO/NITC is subject to inherent limitations and, accordingly, errors or
irregularities may occur and not be detected. The projection of any conclusions, based on our findings,
to future periods is subject to the risk that changes may alter the validity of such conclusions.
Furthermore, the accuracy and reliability of data processed by OCIO/NITC and the resultant report
ultimately rests with the user agency and any compensating controls implemented by such agency.

This report is intended solely for the management of OCIO/NITC, its users, and their auditors.

/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit

August 31, 2005




USDA/OIG-A/88501-2-FM                                                                            Page 2
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                     Exhibit A – Page 1 of 10

The objectives of our examination were to perform testing necessary to express an opinion about (1)
whether the control objectives and techniques identified in this exhibit present fairly, in all material
respects, the aspects of OCIO/NITC’s policies and procedures in place for the period
October 1, 2004 through August 31, 2005; (2) whether the control structure of policies and procedures
was suitably designed to provide reasonable assurance that the specified control objectives were
complied with satisfactorily; and (3) the operating effectiveness of the specified control structure
policies and procedures in achieving specified control objectives.

This report is intended to provide users of OCIO/NITC with information about the control structure
policies and procedures at OCIO/NITC that may affect the processing of user organizations’
transactions and also to provide users with information about the operating effectiveness of the policies
and procedures that were tested. This report, when combined with an understanding and assessment of
the internal control structure policies and procedures at user organizations, is intended to assist user
auditors in (1) planning the audit of user organizations’ financial statements and (2) in assessing
control risk for assertions in user organizations’ financial statements that may be affected by policies
and procedures at OCIO/NITC.

Our testing of OCIO/NITC’s control structure policies and procedures was restricted to the control
objectives and the related policies and procedures listed in the matrices in this exhibit. Our testing was
not intended to apply to any other procedures described in OCIO/NITC’s Service Center Description
and Internal Controls Framework that were not included in the aforementioned matrices or to
procedures that may be in effect at user organizations.

Our review was performed through inquiry of key OCIO/NITC personnel, observation of activities,
examination of relevant documentation and procedures, and tests of controls. We also followed up on
known control weaknesses identified in prior Office of Inspector General (OIG) audits. We performed
such tests as we considered necessary to evaluate whether the operating and control procedures
described by OCIO/NITC and the extent of compliance with them are sufficient to provide reasonable,
but not absolute, assurance that control objectives are achieved.

The description of the tests of operating effectiveness and the results of those tests are included in the
following section of this report.




USDA/OIG-A/88501-2-FM                                                                               Page 3
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                         Exhibit A – Page 2 of 10
     CONTROL                        CONTROL
     OBJECTIVE                     TECHNIQUES                         TESTS PERFORMED                     CONCLUSION
1.   Define and             a.   OCIO/NITC relies on             We reviewed OCIO/NITC              The control structure policies
     communicate                 Department policy, in most      policies and procedures to         and procedures were suitably
     OCIO/NITC                   matters, and provides hard      ensure:                            designed to achieve the control
     organizational              copy and electronic access.                                        objective. Further,
     structure, policies,   b.   When Department policy          1)    Departmental policies had    OCIO/NITC is in the process
     and procedures.             does not provide adequate             been taken into account.     of updating all their security
                                 guidance on administrative      2)    They are revised, updated,   policies based on a detailed
                                 issues, OCIO/NITC issues              and changed when             prioritization schedule.
                                 internal Administrative               necessary.
                                 Directives, which define        3)    They were documented         We found the overall
                                 administrative policies and           and appropriate.             organizational structure was
                                 procedures.                                                        suitably designed to achieve the
                            c.   Policy manuals, procedure       We reviewed the organization       control objective, and was
                                 manuals, and Administrative     structure of OCIO/NITC             operating effectively.
                                 Directives are made             divisions to ensure they were
                                 available in electronic and     documented.
                                 hard copy form, and are used
                                 by personnel.
                            d.   The OCIO/NITC
                                 organizational structure and
                                 the responsibilities of
                                 OCIO/NITC divisions are
                                 well documented and
                                 understood.
                            e.   Division responsibilities,
                                 services, and procedures are
                                 documented.
                            f.   Adequate supervisory and
                                 approval levels exist in each
                                 OCIO/NITC functional area.




USDA/OIG-A/88501-2-FM                                                                                                             Page 4
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                        Exhibit A – Page 3 of 10
     CONTROL                      CONTROL
     OBJECTIVE                   TECHNIQUES                      TESTS PERFORMED                         CONCLUSION
2.   Segregate duties    a.   OCIO/NITC is not                 We reviewed OCIO/NITC               The control structure policies
     between the              responsible for Agency user      level of service for various        and procedures were suitably
     specialized staff        operations or user,              midrange servers/customers.         designed to achieve the control
     as much as               application, or data controls.                                       objective and were operating
     practical.          b.   The responsibilities of the      We tested duties performed by       effectively.
                              OCIO/NITC staff and of the       OCIO/NITC system
                              users of OCIO/NITC               administrators on both NITC         We identified one exception to
                              services are clearly             owned and customer midrange         adequate segregation of duties.
                              differentiated.                  systems.                            Specifically, responsibility for
                         c.   Separate duties are defined                                          review of the midrange
                              for the various technical        We reviewed standard                platform logs rested with the
                              specialties.                     operating practices and             midrange system administrators
                         d.   OCIO/NITC personnel are          directives for policies and         and was not segregated to an
                              prohibited from originating,     procedures related to               independent branch, such as
                              changing, or correcting user     assignment of duties to NITC        OCIO/NITC security staff, for
                              input or data, unless so         personnel.                          review. However, OCIO/NITC
                              requested in writing.                                                has contracted for
                         e.   Separation of duty is            We reviewed access to critical      implementation of a host-based
                              enforced through access          operating system software data      intrusion detection system that
                              rules within the security        sets and compared settings to       will consolidate midrange
                              software whenever practical      best practice standards.            platform logs into one file
                              and consistent with user                                             viewable only by the
                              requirements.                    We reviewed user                    OCIO/NITC security staff.
                                                               identifications (ID) with special   This system, once fully
                                                               access privileges. This is a        implemented, will mitigate this
                                                               followup issue from our NITC        vulnerability.
                                                               General Controls Review –
                                                               FISCAL YEAR 2004 (Audit
                                                               Report No. 88501-1-FM).
                                                               NITC has effectively mitigated
                                                               this weakness.

                                                               We reviewed system settings
                                                               and user rights on selected
                                                               midrange environment servers.




USDA/OIG-A/88501-2-FM                                                                                                            Page 5
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                        Exhibit A – Page 4 of 10
     CONTROL                       CONTROL
     OBJECTIVE                    TECHNIQUES                      TESTS PERFORMED                        CONCLUSION
3.   Apply appropriate    a.   OCIO/NITC management             We reviewed policies and           The control structure policies
     controls to the           and contracting agency           procedures to ensure that          and procedures were suitably
     system                    development involvement is       departmental policies were         designed to achieve the control
     development life          required prior to the design,    considered. We reviewed            objective and were operating
     cycle.                    development, testing, and        internal policies and procedures   effectively. Further,
                               conversion of new or             to ensure that they are revised,   OCIO/NITC is in the process
                               modified application             updated, and changed when          of updating all their security
                               systems.                         necessary and were properly        policies based on a detailed
                          b.   The modification or              implemented.                       prioritization schedule.
                               installation of systems
                               software requires the            We reviewed midrange
                               approval of OCIO/NITC            software and firewall changes
                               management.                      to determine if changes
                          c.   Applications are well            received documented
                               documented as they are           authorization, review, and
                               being designed.                  approval before
                          d.   Formal, standard control         implementation. This is a
                               practices are followed in        followup issue from our NITC
                               application design and           General Controls Review –
                               development, and are             FISCAL YEAR 2004 (Audit
                               reviewed for proper              Report No. 88501-1-FM).
                               implementation.                  NITC has initiated and planned
                          e.   Customer approval of all         actions to mitigate this
                               report layouts, input formats,   weakness.
                               control reports, etc., is
                               required.                        We reviewed software changes
                                                                to determine if testing is
                                                                performed before changes are
                                                                made to the midrange systems
                                                                and firewalls. This is a
                                                                followup issue from our NITC
                                                                General Controls Review –
                                                                FISCAL YEAR 2004 (Audit
                                                                Report No. 88501-1-FM).
                                                                NITC has initiated and planned
                                                                actions to mitigate this
                                                                weakness.
4.   Provide              a.   Conversion procedures            We reviewed policies and           The control structure policies
     reasonable                ensure proper cutoffs and        procedures to ensure that          and procedures were suitably
     assurance that            conversion of data files.        departmental policies were         designed to achieve the control
     new or modified      b.   Testing is performed using       considered. We reviewed            objective and were operating
     applications              only test data.                  internal policies and procedures   effectively. Further,
     systems and data     c.   Test results are documented      to ensure that they are revised,   OCIO/NITC is in the process
     files are properly        and approved by the              updated, and changed when          of updating all their security
     converted and             contracting customer before      necessary and were properly        policies based on a detailed
     implemented.              acceptance of a new system.      implemented.                       prioritization schedule.
                          d.   Customers are involved in
                               preparing the test data.
                          e.   As applicable, testing is
                               performed on all interrelated
                               systems to evaluate the
                               integrity of those systems.




USDA/OIG-A/88501-2-FM                                                                                                           Page 6
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                       Exhibit A – Page 5 of 10
     CONTROL                       CONTROL
     OBJECTIVE                    TECHNIQUES                      TESTS PERFORMED                       CONCLUSION
5.   Provide              a.   Authorization and approval       We reviewed software change       The control structure policies
     reasonable                is required before               policies to determine if          and procedures were suitably
     assurance that all        modifications are made to        adequate controls existed over    designed to achieve the control
     software changes          the network, midrange            modifications to the network,     objective and were operating
     are appropriately         server, office                   midrange servers, and             effectively.
     reviewed and              administration/local area        mainframe operating systems.
     authorized.               network and mainframe            This is a followup issue from
                               operating systems, or            our NITC General Controls
                               software applications.           Review – FISCAL YEAR 2004
                          b.   Operational personnel are        (Audit Report No. 88501-1-
                               not involved in changes to       FM). NITC has effectively
                               the operating system             mitigated this weakness.
                               (mainframe or midrange
                               server) or user applications.    We reviewed OCIO/NITC’s
                          c.   There is thorough                information management
                               supervision and review of all    system records to determine if
                               changes.                         midrange software and firewall
                          d.   Problems and change              changes were documented,
                               requests to the operating        approved before modification,
                               system and software              and tracked to provide an audit
                               controlled by the                trail. This is a followup issue
                               OCIO/NITC are tracked            from our NITC General
                               using manual and automated       Controls Review – FISCAL
                               systems that provides an         YEAR 2004 (Audit Report No.
                               audit trail of system changes.   88501-1-FM). NITC has
                          e.   Operating systems and            effectively mitigated this
                               systems software changes         weakness.
                               are tested to ensure that they
                               operate properly and provide     We reviewed change records to
                               necessary functionality.         determine if midrange and
                          f.   Modified or new software is      firewall changes were tested
                               not installed until reviewed     before being added to the
                               by appropriate approving         production environment. This
                               officials.                       is a follow up issue from our
                                                                NITC General Controls Review
                                                                – FISCAL YEAR 2004 (Audit
                                                                Report No. 88501-1-FM).
                                                                NITC has effectively mitigated
                                                                this weakness.




USDA/OIG-A/88501-2-FM                                                                                                          Page 7
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                        Exhibit A – Page 6 of 10
     CONTROL                        CONTROL
     OBJECTIVE                     TECHNIQUES                      TESTS PERFORMED                       CONCLUSION
6.   Conduct the           a.   Document current                 We reviewed OCIO/NITC’s           The control structure policies
     planning activities        OCIO/NITC controls, and          internal controls framework       and procedures were suitably
     needed to provide          identify required new            and evaluated OCIO/NITC’s         designed to achieve the control
     reasonable                 controls.                        Disaster Recovery Plan. This      objective and were operating
     assurance that the    b.   To the degree possible, plan     is a followup issue from our      effectively.
     OCIO/NITC will             how OCIO/NITC will meet          NITC General Controls Review
     meet functional            future Information System        – FISCAL YEAR 2004 (Audit
     and control                requirements.                    Report No. 88501-1-FM).
     requirements.         c.   Ensure that sufficient           NITC has effectively mitigated
                                capacity exists to meet peak     this weakness.
                                demand.
                                                                 We interviewed OCIO/NITC
                                                                 personnel to determine future
                                                                 plans for securing various
                                                                 OCIO/NITC platforms.
7.   Access to the         a.   Software system specialists      We reviewed system logging        The control structure policies
     operating system,          are prohibited from              policies and procedures.          and procedures were suitably
     associated                                                                                    designed to achieve the control
                                initializing the operating
     software, and                                               We reviewed change                objective. and were operating
     documentation is           system (except in the            management policies and           effectively.
     restricted to              midrange environment where       procedures, and recently
     authorized                 system administrators will       completed their information       No written policies and
     personnel.                 initialize the operating         management records.               procedures exist outlining
                                system).                                                           midrange system logs that are
                                                                 We reviewed policies and          to be reviewed or what actions
                           b.   Operational personnel are
                                                                 procedures for special system     to take for various security
                                prohibited from making           privileges. We reviewed user      violations.
                                modifications to the             IDs with these accesses. We
                                operating system and             interviewed OCIO/NITC             Access to midrange servers
                                software. Office                 security staff to determine how   were logged. However, as
                                administration/local area        these user IDs are monitored.     discussed in Control Objective
                                network is administered per      We determined if forms were       2, responsibility for review of
                                                                 completed for user IDs with       the midrange platform logs
                                memorandum of
                                                                 high-level system privileges.     rested with the midrange
                                understanding and security                                         system administrators. See
                                staff oversight.                 We attempted to review written    conclusion section for Control
                           c.   Automated and manual             access authorizations for         Object 2 for further
                                procedures are used to track     persons with system               information.
                                all significant mainframe        administrator duties in the
                                                                 midrange environment.             Written access authorizations
                                operating system and
                                                                                                   did not exist for system
                                software modifications, as                                         administrators in the midrange
                                well as other significant                                          environment. However,
                                changes to other                                                   OCIO/NITC immediately
                                OCIO/NITC infrastructure                                           drafted a policy to control
                                components.                                                        access and has taken steps to
                           d.   System privileges that                                             identify and restrict access to
                                bypass normal system                                               the midrange systems thereby
                                controls are allowed only                                          mitigating these vulnerabilities.
                                when necessary and
                                requested by the appropriate                                       Special access privilege
                                supervisor in writing, and are                                     policies had been updated and
                                logged and/or closely                                              user IDs with special access
                                monitored.                                                         privileges had been limited.


USDA/OIG-A/88501-2-FM                                                                                                             Page 8
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                        Exhibit A – Page 7 of 10
     CONTROL                      CONTROL
     OBJECTIVE                   TECHNIQUES                       TESTS PERFORMED                        CONCLUSION
8.   Provide             a.   The procedures to be              We reviewed critical data sets     The control structure policies
     reasonable               followed by technicians and       to determine if user IDs           and procedures were suitably
     assurance that           librarians are thoroughly         accessing these data sets were     designed to achieve the control
     operations staff         documented.                       being logged.                      objective and were operating
     operates            b.   Access to resources and data                                         effectively.
     automated                files is limited by security      We reviewed system
     equipment in             software to those required to     configuration in the midrange      Access to midrange servers
     accordance with          do their work.                    environment to determine if        were logged. However, as
     the management      c.   On most USDA systems,             logging is maintained on the
                                                                                                   discussed in Control Objective
     criteria.                critical and repetitive           servers. This is a followup
                              operations to maintain            issue from our NITC General        2, responsibility for review of
                              systems are automated using       Controls Review – FISCAL           the midrange platform logs
                              scheduling services and the       YEAR 2004 (Audit Report No.        rested with the midrange
                              mainframe operating system.       88501-1-FM). NITC has              system administrators.
                         c.   Technician and librarian job      initiated and planned actions to
                              responsibilities are defined      mitigate this weakness.
                              in their position descriptions.
                         d.   The Daily Log/Shift Review
                              is used to document and
                              track operational events.
9.   Provide             a.   Access to the operations area     We reviewed and observed           The control structure policies
     reasonable               and office is physically          access to critical resources and   and procedures were suitably
     assurance that           restricted through the use of     the use of guards, key badges,     designed to achieve the control
     equipment is used        a key badge system. The           and biometric devices utilized     objective.
     by authorized            door system uses a proximity      to control access to restricted
     persons following        reader biometric fingerprint      areas.
     prescribed               to prevent unauthorized
     procedures.              access. Access to the             Reviewed documentation that
                              operations area is further        NITC recertified individuals
                              restricted through the use of     who require access to sensitive
                              a double door access point.       areas based on job function.
                         b.   Policies and procedures
                              ensure that access to the         Reviewed physical access to
                              operations area is highly         consoles to ensure access
                              restricted. This includes         limited to only those
                              midrange server activities.       individuals that require it to
                         c.   Guards protect the NITC           perform their job.
                              operations and office area 24
                              hours per day, 7 days a
                              week.
                         d.   Continuously monitors NITC
                              access control points and
                              operational floor space
                              through the use of differing
                              video surveillance
                              monitoring angles and alarm
                              systems.




USDA/OIG-A/88501-2-FM                                                                                                            Page 9
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                      Exhibit A – Page 8 of 10
  CONTROL                     CONTROL
  OBJECTIVE                  TECHNIQUES                        TESTS PERFORMED                         CONCLUSION
10. USDA: Provide    a.   Interactive and batch access      We reviewed related policies and     The control structure policies
    reasonable            to resources and data files is    procedures and security software     and procedures were suitably
    assurance that        controlled through                access controls over inactive user   designed to achieve the control
    only approved         management controls and the       IDs. This is a followup issue        objective and were operating
    users have            use of the security package.      from our NITC General Controls       effectively.
    access to        b.   Access to sensitive regions       Review – FISCAL YEAR 2004
    OCIO/NITC,            and transactions is restricted.   (Audit Report No. 88501-1-FM).
    and that they    c.   OCIO/NITC, on a monthly           NITC has effectively mitigated
    are accessing         basis, suspends or deletes        this weakness.
    and processing        logon IDs that have been
    only within           inactive for a designated         We reviewed user IDs that have
    approved              period of time                    not been used for an extended
    boundaries.      d.   Security software is used to      period of time and password
                          control user logon-ID and         settings to ensure adequate
                          passwords.                        controls have been implemented
                     e.   The OCIO/NITC creates             over user IDs and passwords.
                          only those login
                          identifications requested by      We reviewed related policies and
                          an agency security officer.       procedures and security software
                     f.   All new logon IDs are             access controls over special
                          created in suspend status.        privilege user ID.
                          Agency security officers
                          must unsuspend the logon ID       We reviewed policies and
                          and change the unknown            procedures, reviewed firewall
                          password before it is usable.     rules, and tested access controls
                     g.   Special privileges must be        over firewalls.
                          requested and approved by
                          the appropriate Information       We reviewed system
                          System Security Program           configurations to ensure settings
                          Managers or management            did not allow excessive user
                          officials.                        privileges. This is a followup
                     h.   Firewalls and intrusion           issue from our NITC General
                          detection control and detect      Controls Review – FISCAL
                          activity.                         YEAR 2004 (Audit Report No.
                                                            88501-1-FM). NITC has
                                                            effectively mitigated this
                                                            weakness.




USDA/OIG-A/88501-2-FM                                                                                                        Page 10
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                      Exhibit A – Page 9 of 10
  CONTROL                       CONTROL
  OBJECTIVE                    TECHNIQUES                      TESTS PERFORMED                         CONCLUSION
11. Data files are     a.   OCIO/NITC is responsible        We performed testing in NITC’s       The control structure policies
    adequately              for back-up and recovery of     back-up procedures for the           and procedures were suitably
    protected from          operating system software,      mainframe and firewalls. This is a   designed to achieve the control
    unauthorized            which is completed on a         followup issue from our NITC         objective and were operating
    modification or         fixed schedule. Customer        General Controls Review –            effectively.
    destruction.            agencies are responsible for    FISCAL YEAR 2004 (Audit
                            back-up and recovery of         Report No. 88501-1-FM). NITC
                            their applications and data.    has effectively mitigated this
                            The back-up tapes are stored    weakness.
                            at a secure off-site facility
                            and can be retrieved in less    We reviewed the most current
                            than 2 hours.                   Contingency/ Disaster Recovery
                       b.   Agency security officers are    Plans for OCIO/NITC
                            responsible for identifying     Infrastructure Support,
                            critical user files. Users      Mainframe and General Support
                            back up their applications      Systems. This is a followup issue
                            and data on the schedule        from our NITC General Controls
                            they deem appropriate on        Review – FISCAL YEAR 2004
                            midrange server                 (Audit Report No. 88501-1-FM).
                            environments, NITC system       NITC has effectively mitigated
                            administrators rotate           this weakness.
                            customer back-up tapes off
                            site at customer request and
                            use the mainframe as a
                            supplemental back-up media
                            through IBM’s Tivoli
                            Storage Manager.
                       c.   Procedures are documented
                            in the NITC Disaster
                            Recovery Plans.
12. Assess the         a.   Risk assessments are            We reviewed OCIO/NITC                The control structure policies
    vulnerability of        performed on OCIO/NITC          Disaster Recovery Plans. This is     and procedures were suitably
    OCIO/NITC to            systems.                        a followup issue from our NITC       designed to achieve the control
    physical and       b.   A Contingency Plan for          General Controls Review –            objective and were operating
    other disasters,        Alternate Site Operations is    FISCAL YEAR 2004 (Audit              effectively.
    and put in place        in place.                       Report No. 88501-1-FM). NITC
    procedures for     c.   The OCIO/NITC facility is       has effectively mitigated this
    maintaining             designed to survive             weakness.
    essential               numerous physical disasters
    operations after        with minimal damage.
    such an            d.   The USDA Internet Access
    occurrence.             network provides the
                            physical medium for the
                            OCIO/NITC wide area
                            network.




USDA/OIG-A/88501-2-FM                                                                                                        Page 11
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                   Exhibit A – Page 10 of 10
  CONTROL                     CONTROL
  OBJECTIVE                  TECHNIQUES                       TESTS PERFORMED                         CONCLUSION
13. Evaluate and     a.   Vulnerabilities are assessed     We interviewed OCIO/NITC             The control structure policies
    substantiate          on a regular basis through       officials to determine if all        and procedures were suitably
    information           risk assessments,                network devices were periodically    designed to achieve the control
    technology            vulnerability assessments,       scanned. This is a followup issue    objective and were operating
    controls on a         and security testing.            from our NITC General Controls       effectively.
    regular basis.   b.   Develop and periodically test    Review – FISCAL YEAR 2004
                          a plan that will allow           (Audit Report No. 88501-1-FM).       OCIO/NITC had updated their
                          OCIO/NITC to recover             NITC has effectively mitigated       procedures to document all
                          operating systems and            this weakness.                       changes to the firewall in
                          software at the Alternate                                             INFOMAN records. However,
                          Operations Site within 72        We obtained and reviewed scan        firewall rules implemented
                          hours after disaster             reports of selected systems.         before NITC established its
                          declaration.                                                          configuration management
                                                           We interviewed OCIO/NITC             policy were not thoroughly
                                                           security staff to determine the      documented. OCIO/NITC
                                                           oversight of the security staff on   were in the process of
                                                           the midrange environment. This       implementing a commercially
                                                           is a followup issue from our         available software product that
                                                           NITC General Controls Review –       would correct this
                                                           FISCAL YEAR 2004 (Audit              vulnerability.
                                                           Report No. 88501-1-FM). NITC
                                                           has implemented and planned          Network devices were scanned
                                                           actions to mitigate this weakness.   routinely.

                                                           We reviewed OCIO/NITC
                                                           Disaster Recovery Plans.

                                                           We reviewed firewall rules to
                                                           ensure National Institute of
                                                           Standards and Technology and
                                                           OCIO guidelines were being
                                                           followed.
14. Provide an       a.   Ensure that OCIO/NITC            We reviewed procedures for           The control structure policies
    appropriate           staff and contractors have the   removing physical access from        and procedures were suitably
    level of              appropriate level background     separated employees.                 designed to achieve the control
    personnel             investigation.                                                        objective and were operating
    security and     b.   Ensure terminated                We reviewed policies and             effectively.
    security              employees are disallowed         procedures, reviewed firewall
    awareness.            access to NITC and NITC          rules, and tested access controls    OCIO/NITC has adequate
                          resources.                       over firewalls.                      controls over timely removal of
                                                                                                unneeded user accounts.

                                                                                                As discussed in Control
                                                                                                Objective 10, OCIO/NITC had
                                                                                                limited access to the firewalls.
                                                                                                Only one inappropriate account
                                                                                                was identified and OCIO
                                                                                                immediately deleted the
                                                                                                account.




USDA/OIG-A/88501-2-FM                                                                                                       Page 12
